                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

    Case Number: I04070024                                                                   Page 1 of 1
i



          The National Science Foundation, Office of Inspector General (NSFIOIG) received an allegation
                                   '
          from, a Program Manager alleging that a Principal Investigator (PI) 2mayhave misused grant funds.
          The Program Manager stated that he had concerns that the PI had not provided financial support
          from the grant to the foreign collaborator3. The Program Manager advised that the PI provided an
          accounting of how the grant funds were used that revealed the grant funds had been moved to
          different areas of the budget.

         NSFIOIG contacted the PI'S home institution and the foreign collaborator to obtain information
         on the foreign collaboration and grant expenditures. The foreign collaborator advised that he
         collaborated on the grant but a colleague4,traveled in his place due to his unfavorable health
         condition. University revealed that some of the participant support was used to pay for students
         that worked on the grant and for some of the travel expenses of the foreign collaborator.
         However, the majority of the participant support was used to fund international travel for the PI.
I
         The Program Manager explained that the most important aspect of the grant is the foreign
         collaboration therefore; he was not concerned that a different individual traveled to collaborate
         on the grant. The Program Manager stated that he would have approved the use of participant
         support for international travel of the PI or foreign collaborator. A determination was made to
         close the case due to the Program Manager's concurrence with expenditures on the grant.



         Accordingly, this case is closed.




          ' Footnote Redacted
           Footnote Redacted
           Footnote Redacted
           Footnote Redacted


                                                                                                              I1

NSF OIG Fonn 2 (1 1/02)
